Roderick and Solange MacArthur Justice Center
501 H Street NE, Suite 275
Washington, DC 20002

Amir H. Ali
Director, Washington, DC Office
Deputy Director, Supreme Court & Appellate Program

macarthurjusticecenter.org

amir.ali@macarthurjustice.org
O 202 869 3434
F 202 869 3435

March 24, 2021
VIA FEDERAL EXPRESS
The Honorable Scott S. Harris
Clerk of the Supreme Court of the United States
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Thompson v. Clark, No. 20-659

Dear Mr. Harris:
The Court granted the petition for certiorari in this case on March 8, 2021.
Because of scheduling conflicts created by ongoing litigation matters, and because
undersigned counsel is presently on parental leave, the parties jointly request an
extension of time to file petitioner’s opening brief and the joint appendix, and an
extension of time to file respondent’s merits brief. Pursuant to Rule 30.4 of this
Court’s Rules and subject to the Court’s approval, we propose the following briefing
schedule:
Petitioner’s Opening Brief and Joint Appendix:
Respondent’s Response Brief:

June 4, 2021
August 16, 2021

Under this Court’s rules, petitioner’s reply brief would be due 30 days later (or at the
time specified in Rule 25.3).
Counsel for both parties consent to these extensions of time.
Sincerely,

Amir H. Ali
Counsel for Petitioner
cc: Richard Paul Dearing, Counsel for Respondents

